I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S

B R O W N, C U R TI S J E R O M E, S R.
P etiti o n er
vs.

N o:

2 0- 7 1 4 1

US A
W AI V E R
T h e G o v er n m e nt h er e b y w ai v es its ri g ht t o fil e a r es p o ns e t o t h e p etiti o n i n t his c as e,
u nl ess r e q u est e d t o d o s o b y t h e C o urt.

E LI Z A B E T H B. P R E L O G A R
A cti n g S oli cit or G e n er al
C o u ns el of R e c or d
F e br u ar y 2 2, 2 0 2 1
c c:
C U R TI S J. B R O W N
238979
K E R S H A W C O R R E C TI O N A L
I N S TI T U TI O N
4 8 4 8 G O L D MI N E H W Y
K E R S H A W, S C 2 9 0 6 7

